U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Dzhokhar A. Tsarnaev, No. 20-443
Dear Mr. Harris:
For the convenience of the Court in advance of the October 13 oral argument in this case,
we write to clarify the organization of the joint appendix. The joint appendix begins with the
relevant docket entries from the courts below (J.A. 1-96). The two public volumes of the joint
appendix then include materials relevant to the government’s Statement of the Case (J.A. 97-275),
followed by materials relevant to the first question presented (J.A. 276-534), followed by materials
relevant to the second question presented (J.A. 535-889). The third volume of the joint appendix
(J.A. 890-1026) includes materials partially under seal that pertain to the Statement of the Case
and the second question presented. The government’s objective in so organizing the joint appendix
was to facilitate consideration of the complex record in this case by largely keeping together
materials relevant to each respective question presented and materials that appeared together in the
appellate record. Respondent did not object to this organization.
We also wish to inform the Court about three typographical errors regarding dates that
appear in the joint appendix, which the government regrets.
•

On J.A. 649, the date of the lobby conference should appear as “[Apr.] 17, 2015.” The
conference transcript in its original form is misdated “March 17, 2015,” and the joint
appendix provides an incorrect date of “Apr. 7, 2015.” As indicated on the district court’s
docket (entry no. 1306), the conference occurred on April 17, 2015. The joint appendix
table of contents entry corresponding to this document should also reflect that date.

•

On J.A. 667, and in the accompanying joint appendix table of contents entry, the date of
the filing should appear as “Apr. 14, 2015,” rather than “Apr. 14, 2014.”

•

On J.A. 980, the date of the letter should appear as “Sept. 30, [2013],” rather than “Sept.
30, 2011.” Although the letter is correctly reproduced in the joint appendix, the letter

was misdated in its original form; the letter was sent on September 30, 2013, as the joint
appendix table of contents indicates.
I would appreciate it if you would distribute this letter to the Court.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

2

20-443
UNITED STATES OF AMERICA
DZHOKHAR A. TSARNAEV

GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1100
GINGER.ANDERS@MTO.COM

